     Department of Homeland Security

     ��������������������������



FEMA Should Recover $234,034 of Public Assistance 

        Grant Funds Awarded to City of 

   Daytona Beach, Florida – Hurricane Charley 





DA-13-26                             September 2013

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security
                                             Washington, DC 20528 I www.oig.dhs.gov

                                                       SEP      5 2013


MEMORANDUM FOR:                        Major P. (Phil) May
                                       Regional Administrator, Region IV
                                       Federal E

FROM:
                                       Assistant n e or G eral
                                       Office of Emergency Management Oversight

SUBJECT:                               FEMA Should Recover $234,034 of Public Assistance
                                       Grant Funds Awarded to City of Daytona Beach, Florida-
                                       Hurricane Charley
                                       FEMA Disaster Number 1539-DR-FL
                                       Audit Report Number DA-13-26

We audited Public Assistance grant funds awarded to the City of Daytona Beach, Florida (City)
(FIPS Code 127-16525-00}. Our audit objective was to determine whether the City accounted
for and expended Federal Emergency Management Agency (FEMA) grant funds according to
Federal regulations and FEMA guidelines.

The City received a Public Assistance grant award of $3.0 million from the Florida Division of
Emergency Management (State), a FEMA grantee, for damages resulting from Hurricane
Charley, which occurred in August 2004. The award provided 100 percent FEMA funding for the
first 72 hours of debris removal and emergency protective measures undertaken as a result of
the disaster and 90 percent funding thereafter. The award also provided 90 percent funding for
permanent repairs to buildings and other facilities. The award consisted of 13 large projects
                       1
and 26 small projects.

We audited seven large projects and six small projects with awards totaling $1.9 million (see
Exhibit, Schedule of Projects Audited and Questioned Costs). We limited our review of small
projects to determining whether the City (1) completed the projects, and (2) received duplicate
benefits for the projects. The audit covered the period August 11, 2004, to December 9, 2009,
during which the City claimed $1.9 million of FEMA funds. At the time of our audit, the City had
completed work on all large projects and had submitted final claims to the State for large
project expenditures.

We conducted this performance audit between November 2012 and May 2013 pursuant to the
Inspector General Act of 1978, as amended, according to generally accepted government

1
    Federal regulations in effect at the time of Hurricane Charley set the large project threshold at $54,100.
                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based upon our audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based upon our audit objective. To conduct this audit, we
applied the statutes, regulations, and FEMA policies and guidelines in effect at the time of the
disaster.

We judgmentally selected and reviewed project costs (generally based on dollar value);
interviewed City, State, and FEMA personnel; reviewed the City’s procurement policies and
procedures; reviewed applicable Federal regulations and FEMA guidelines; and performed other
procedures considered necessary under the circumstances to accomplish our audit objective.
We did not assess the adequacy of the City’s internal controls applicable to its grant activities
because it was not necessary to accomplish our audit objective. However, we gained an
understanding of the City’s method of accounting for disaster-related costs and its policies and
procedures for administering activities provided for under the FEMA award.


                                                RESULTS OF AUDIT

FEMA should recover $234,034 of grant funds awarded to the City. Although the City generally
accounted for FEMA funds according to Federal regulations and FEMA guidelines, its claim
included $234,034 (Federal share $224,117) of questionable costs, which consisted of $173,077
of unsupported equipment costs, $55,551 of ineligible debris disposal costs, and $5,406 of costs
for small projects not completed.

Finding A: Supporting Documentation

The City’s claim included $173,077 for force account equipment that the City did not support
with adequate documentation.2 According to Cost principles at 2 CFR 225, Cost Principles for
State, Local, and Indian Tribal Governments, Appendix A, Section (C)(1)(j), a cost must be
adequately documented to be allowable under Federal awards.

The City claimed equipment costs totaling $173,077 under Projects 6942 and 6954. This claim
included $38,643 for the police department and $134,434 for other City departments.
However, the City did not have adequate documentation to support the costs. For the police
department, City officials provided a spreadsheet for vehicle assignments that they created and
used in conjunction with the police officer’s timesheets to calculate the claim. However, the
City did not have other documentation such as vehicle rosters or fleet records to identify the
dates and times that specific vehicles were assigned to police officers.



2
    Force account refers to the City’s personnel and equipment .



www.oig.dhs.gov                                       2                                   DA-13-26
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


For the remaining departments, the City used a summary equipment form to record equipment
use. The summary form contained the name of the employee, the piece of equipment assigned
to the employee, the hours of use, and the equipment rate. The City calculated the hours of
use for each piece of equipment using information contained in the employee’s timesheet. For
instance, if an employee worked an 8-hour day, the City claimed 8 hours of use for each piece
of equipment assigned to the employee on that day. The City did not have any source
documentation to support the hours claimed such as equipment activity logs or equivalent
documentation that identified the dates and the beginning and ending times the employees
used the equipment.

Both methodologies the City used to calculate equipment costs assume that employees used
the equipment continuously throughout their workday and, therefore, do not consider idle
time, which FEMA considers ineligible (Public Assistance Guide, FEMA 322, October 1999, p.
37). Therefore, we question the $173,077 claimed for equipment use, as shown in table 1,
because the City’s documentation was insufficient for us to verify the accuracy and eligibility of
the costs.

                              Table 1: Supporting Documentation
             Project                                       Costs  Amount
             Number         Activities Not Supported     Claimed Questioned
              6954      Debris Removal                    $38,215   $38,215
                        Emergency Protective Measures
               6942     – Various Departments             134,862   134,862
               Total                                     $173,077  $173,077

City officials disagreed with the finding. City officials told us a 2009 flood destroyed the
equipment activity logs. They also told us that equipment summaries and other file summaries
are sufficient documentation to support the equipment use claim.

Finding B: Ineligible Debris Disposal Costs

The City’s claim under Projects 248 and 5868 included ineligible debris disposal costs totaling
$55,551. The City claimed $121,918 for the loss of landfill air space consumed by 21,389 cubic
yards of disaster-related vegetative mulch deposited at the City’s landfill. The City based its
claim on a rate of $5.70 per cubic yard of vegetative debris brought to the landfill. According to
the debris management plan for the landfill, the City’s long-term strategy called for allowing the
mulch to decompose and become quality topsoil usable for other City projects. Because this
strategy would not have resulted in permanent loss of landfill air space, the City’s claim is not
eligible for reimbursement under the Public Assistance program.

However, in 2008, the Florida Department of Environmental Protection notified the City that it
could not allow the vegetative mulch to decompose at the City’s landfill because the debris



www.oig.dhs.gov                               3                                           DA-13-26
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


produced ammonia that was contaminating the water table. As a result, the City removed a
majority of the mulch from the landfill and moved it to an offsite disposal location for a cost of
$66,367.

Cost principles at 2 CFR 225, Cost Principles for State, Local, and Indian Tribal Governments,
Appendix A, Section (C)(3)(a.), state that a cost is allocable to a particular cost objective if the
goods or services involved are chargeable or assignable to such cost objective in accordance
with relative-benefits received. Because debris disposal costs are eligible costs under the Public
Assistance program, the City would be entitled to reimbursement of the $66,367 that it
incurred to remove the debris from the landfill, but no costs for lost landfill air space because
the City lost no space indefinitely. Therefore, we question $55,551 of excessive costs, which
represents the net of the $121,918 the City claimed less the $66,367 it spent to move the mulch
to an offsite disposal location.

                          Table 2: Ineligible Debris Disposal Costs
                               Cubic Yards
                  Project Disposed at Landfill         Total       Amount
                  Number @ $5.70 Cubic Yard          Claimed     Questioned
                    248                 9,834.63      $ 56,057      $25,553
                   5868               11,554.61         65,861       29,998
                   Total              21,389.24      $121,918       $55,551

City officials disagreed with this finding. They asserted that because the original plan of using
the mulch for City projects did not occur because of the mulch contamination and subsequent
removal, they claimed the City is entitled to the lost air space of the mulch that the contractor
did not remove. However, because the original management plan was to use the mulch with
no air space to be lost, the City should not have claimed it. Additionally, if the landfill lost
airspace the City did not provide support documenting how much airspace was actually lost.

Finding C: Small Project Work Not Completed

The City’s claim included $5,406 for permanent work under one small project that the City did
not complete. According to 44 CFR 206.205(a), failure to complete work under a small project
may require that the Federal payment be refunded. In addition, FEMA’s Public Assistance
Guide (FEMA 322, October 1999, p. 114) states that a grant recipient has 18 months from the
disaster declaration date to complete work under permanent repair projects. The State, as
grantee, has the authority to grant extensions for an additional 30 months under extenuating
circumstances, and FEMA may grant extensions beyond the State’s authority appropriate to
the situation.

The City received $21,296 of FEMA funding under Project 6959 to make repairs to the “Lube
Rack” facility damaged by the disaster in August 2004. However, as of March 2013, or 8 years



www.oig.dhs.gov                              4                                             DA-13-26
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


and 7 months after the disaster, the City neither provided evidence that it completed repair
items totaling $5,406 under the project, nor obtained a time extension to complete the work
from the State or FEMA. Therefore, we question the $5,406. City officials agreed with this
finding.


                                   RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Disallow $173,077 (Federal share $169,256) of unsupported costs unless
the City can provide additional evidence to support the costs claimed (finding A).

Recommendation #2: Disallow $55,551 (Federal share $49,996) of ineligible debris disposal
costs claimed for lost landfill capacity from disaster-related mulch (finding B).

Recommendation #3: Disallow $5,406 (Federal share $4,865) of ineligible costs for work not
completed under Project 6959 unless the City can provide additional evidence that it completed
the project (finding C).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with City, State, and FEMA officials during our audit. We also
provided a written summary of our findings and recommendations in advance to these officials
and discussed them at the exit conference held on May 30, 2013. City officials partially agreed
with our findings and recommendations. We included their comments, where appropriate, in
this report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until we receive and evaluate your response, we will consider the
recommendations as open and unresolved.

Consistent with our responsibility under the Inspector General Act, we will provide copies of our
report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. We will post the report on our website for public
dissemination.




www.oig.dhs.gov                             5                                            DA-13-26
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


Major contributors to this report are David Kimble, Director; William Johnson, Audit Manager;
and John Schmidt, Auditor-in-Charge.

Please call me with any questions, or your staff may contact David Kimble, Eastern Region Audit
Director, at (404) 832-6702.




www.oig.dhs.gov                            6                                           DA-13-26
                                      OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


                                                                                                            Exhibit

                                                   Schedule of Projects Audited and Questioned Costs

   Project       Category            Description                 Amount          Amount        Federal
  Number         Of Work              Of Work                    Awarded        Questioned      Share      Finding
 Large Projects:
    248            A        Debris Removal                           $471,490        $25,553     $22,998     B
    776            A        Debris Removal                             76,828
    5868           A        Debris Removal                            667,427         29,998      26,998     B
    6535           A        Debris Removal                             82,279
    6824           G        Permanent Repairs                         150,219
    6942           B        Emergency Protective Measures             276,031        134,862     134,862     A
    6954           A        Debris Removal                             66,352         38,215      34,394     A
 Small Projects:
    1127            E       Permanent Repairs                          $1,090
    4595           G        Permanent Repairs                          24,650
    6532            E       Permanent Repairs                          30,911
    6477           G        Permanent Repairs                          52,816
    6958            E       Permanent Repairs                          14,869
    6959            E       Permanent Repairs                          21,296          5,406       4,865     C
 Total                                                             $1,936,258       $234,034    $224,117




www.oig.dhs.gov                                             7                                              DA-13-26
                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                                                                        Appendix

                                      Report Distribution

Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Office
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-13-004)

State

Executive Director, Florida Division of Emergency Management
State Auditor, Florida

Subgrantee

City Manager, City of Daytona Beach

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform



www.oig.dhs.gov                            8                             DA-13-26
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
